No. 20-62
IN THE SUPREME COURT OF THE UNITED STATES
_________________
PARENTS FOR PRIVACY, ET AL., PETITIONERS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE FEDERAL RESPONDENTS, via email and first-class
mail, postage prepaid, this 23rd day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 222 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on October 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0062
PARENTS FOR PRIVACY, ET AL.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.

VERNADETTE R. BROYLES
CHILD & PARENTAL RIGHTS CAMPAIGN,
INC.
5805 STATE BRIDGE RD.
SUITE G310
JOHNS CRREK, GA 30097
770-448-4525
JAMES D. ESSEKS
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 BROAD STREET
NEW YORK , NY 10004
212-549-2623
JESSEKS@ACLU.ORG
MARY ELIZABETH MCALISTER
CHILD & PARENTAL RIGHTS CAMPAIGN,
INC.
P.O. BOX 637
MONROE , VA 24574
770-448-4525
MMCALISTER@CHILDPARENTRIGHTS.ORG

